<html>
<title> - H.R. 272, H.R. 437 and H.R. 1113</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                   H.R. 272, H.R. 437 and H.R. 1113

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, April 8, 2003

                               __________

                           Serial No. 108-14

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

86-339 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 8, 2003....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     4
        Prepared statement on H.R. 272...........................     5
    Kingston, Hon. Jack, a Representative in Congress from the 
      State of Georgia...........................................     9
        Prepared statement on H.R. 1113..........................    10
    Larson, Hon. John B., a Representative in Congress from the 
      State of Connecticut.......................................     7
        Prepared statement on H.R. 437...........................     8
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 272, H.R. 437 and H.R. 1113...     2
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia, Prepared statement on H.R. 437.     3

Statement of Witnesses:
    Anderson, Bob, Acting Assistant Director for Minerals, Realty 
      and Resource Protection, Bureau of Land Management, U.S. 
      Department of the Interior, Washington, D.C................    18
        Prepared statement on H.R. 272...........................    19
    Kohn, Robert, Chief Operating Officer, Colt Gateway LLC, 
      Hartford, Connecticut......................................    31
        Prepared statement on H.R. 437...........................    32
    Manning, Gloria, Associate Deputy Chief, National Forest 
      System, Forest Service, U.S. Department of Agriculture, 
      Washington, D.C............................................    11
        Prepared statement on H.R. 272...........................    12
    Mattingly, Hon. Mack, U.S. Senator from the State of Georgia, 
      Retired, St. Simons, Georgia...............................    29
        Prepared statement on H.R. 1113..........................    30
    Taylor, Jeffrey, Assistant Director, Legislative and 
      Congressional Affairs, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................    13
        Prepared statement on H.R. 437...........................    16
        Prepared statement on H.R. 1113..........................    17

Additional materials supplied:
    Kingston Town Board, Letter submitted for the record by The 
      Honorable Jim Gibbons......................................    28

LEGISLATIVE HEARING ON H.R. 272, TO DIRECT THE SECRETARY OF AGRICULTURE 
 TO CONVEY CERTAIN LAND TO LANDER COUNTY, NEVADA, AND THE SECRETARY OF 
   THE INTERIOR TO CONVEY CERTAIN LAND TO EUREKA COUNTY, NEVADA, FOR 
 CONTINUED USE AS CEMETERIES; H.R. 437, TO DIRECT THE SECRETARY OF THE 
 INTERIOR TO CONDUCT A STUDY OF COLTSVILLE IN THE STATE OF CONNECTICUT 
FOR POTENTIAL INCLUSION IN THE NATIONAL PARK SYSTEM; AND H.R. 1113, TO 
AUTHORIZE AN EXCHANGE OF LAND AT FORT FREDERICA NATIONAL MONUMENT, AND 
                          FOR OTHER PURPOSES.

                              ----------                              


                         Tuesday, April 8, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:09 p.m., in 
room 1334, Longworth House Office Building, Hon. George P. 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Gibbons, Christensen, 
and Bordallo

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. I apologize for the late 
start of this. We had something else going on in another 
Committee room that I was finally able to break away from. I 
appreciate your patience.
    And with that, the Subcommittee on National Parks, 
Recreation, and Public Lands will receive testimony on three 
bills: H.R. 272, H.R. 437, and H.R. 1113.
    Our first bill is H.R. 272, introduced by our Subcommittee 
colleague Mr. Gibbons, to direct the Secretary of Agriculture 
to convey certain land to Lander County, Nevada, and the 
Secretary of the Interior to convey certain land to Eureka 
County, Nevada, for continued use as cemeteries.
    Our second bill, which is H.R. 437, is introduced by 
Congressman Larson of Connecticut, to direct the Secretary of 
the Interior to conduct a study of Coltsville in the State of 
Connecticut for potential inclusion into the National Park 
System.
    And our last bill, H.R. 1113, introduced by Congressman 
Kingston of Georgia, authorizes an exchange of land at the Fort 
Frederica National Monument.
    Before turning time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Larson and Mr. Kingston would be 
permitted to sit on the dais following the statements. There 
being no objection, so ordered.
    And I now turn my time over to the Ranking Member, Mrs. 
Donna Christensen, for any opening statement you may have. 
Donna?
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George Radanovich, Chairman, Subcommittee on 
 National Parks, Recreation, and Public Lands, on H.R. 272, H.R. 437, 
                             and H.R. 1113

    Good afternoon. The hearing will come to order.
    This afternoon, the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony on three bills--H.R. 272, H.R. 437 
and H.R. 1113.
    Our first bill, H.R. 272, introduced by our Subcommittee colleague 
Mr. Gibbons, would direct the Secretary of Agriculture to convey 
certain land to Lander County, Nevada, and the Secretary of the 
Interior to convey certain land to Eureka County, Nevada, for continued 
use as cemeteries.
    Our second bill, H.R. 437, introduced by Congressman Larson of 
Connecticut, directs the Secretary of the Interior to conduct a study 
of Coltsville in the State of Connecticut for potential inclusion in 
the National Park System.
    Our last bill, H.R. 1113, introduced by Congressman Kingston of 
Georgia, authorizes an exchange of land at Fort Frederica National 
Monument.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Larson and Mr. Kingston be permitted to sit 
on the dais following their statements. Without objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    I, too, would like to welcome our colleagues and the other 
witnesses to our hearing today. And we are receiving testimony 
on three unrelated measures.
    Our first bill, H.R. 272, requires the Secretary of 
Agriculture to convey to Lander County, Nevada, approximately 
10 acres of Forest Service land free of charge. Further, the 
Secretary would be required to grant the county an easement 
over adjacent national forest lands for the purpose of allowing 
access to the parcel to be conveyed.
    Currently, the land in question is used as a cemetery under 
a special use permit, and the legislation contains a reverter 
clause that would be triggered should the parcel ever be 
converted to another use.
    Section 2 of the legislation directs the Secretary of the 
Interior to make a similar conveyance of BLM land to Eureka 
County, Nevada. This 10-acre parcel is also being used as a 
cemetery, and the conveyance would require a similar easement 
and contains a similar reverter clause.
    While this measure is generally noncontroversial, it is our 
understanding that the BLM and Forest Service raised several 
technical issues during the Senate consideration of this 
legislation during the previous Congress. And so, we look 
forward to hearing from our witnesses today regarding whether 
these issues have been resolved.
    Our second bill, H.R. 437, introduced by our colleague 
Representative John Larson, would authorize the study of the 
Coltsville historic site in Connecticut. The site, which is 
associated with the historically significant Colt Manufacturing 
Company, contains a number of historic resources. The 
legislation has the support of the entire Connecticut 
delegation, and a similar legislation has passed the Senate 
twice.
    Resources Committee Ranking Member Rahall is a strong 
supporter of H.R. 437, and on his behalf, I would ask that his 
statement of support for the bill be included in the record.
    [The prepared statement of Mr. Rahall follows:]

       Statement of The Honorable Nick Rahall, Ranking Democrat, 
                  Committee on Resources, on H.R. 437

    Mr. Chairman, I wish to express my strong support for H.R. 437, the 
Coltsville Study Act. My good friend and colleague John Larson has done 
yeomen's work on this legislative initiative. Rep. Larson has assembled 
the bipartisan cosponsorship of the Connecticut Congressional 
delegation and has the support of both the local community and the 
National Park Service for this study.
    The Coltsville site is closely associated with the Colt 
Manufacturing Company, made famous by the Colt six-shooter. But the 
history of the area is more than just one gun. During the Industrial 
Revolution the company was at the forefront of innovation and 
technology. The self-contained Coltsville community boasted many 
amenities. We are fortunate that a significant number of historic 
resources survive, including the landmark blue onion dome.
    I want to commend my colleague Rep. Larson for working to preserve 
this piece of American history. I look forward to working with him to 
see this historic resource study brought to fruition.
                                 ______
                                 
    Mrs. Christensen. The last bill, H.R. 1113, which 
authorizes a land exchange at Fort Frederica National Monument, 
raises a number of issues. Evidently, appraisals and 
archeological surveys of the sites to be exchanged have not 
been completed. Further, the noncontiguous parcel that the Park 
Service would acquire through the exchange will likely increase 
the administrative and operational costs of the national 
monument.
    Finally, we understand that there may be additional 
modifications to the lands proposed to be exchanged, and these 
modifications may create further issues. The National Park 
Service testimony on how H.R. 1113 echoes these concerns but 
provides little guidance on how they should be addressed. As a 
general rule, any land exchange we authorize should enhance the 
national monument.
    We have to be careful about altering the boundaries of the 
National Park System units. Former Resources Committee Chairman 
Hansen spoke many times about the National Park Service 
acquiring an historic site, Charles Pickney National Historic 
Site, that didn't contain the historic resources that were 
claimed. We shouldn't make the same mistake here.
    Mr. Chairman, I appreciate the presence of our witnesses 
here today and look forward to their insights on the 
legislation before us. And I am sure it was just an oversight, 
but I am sure our colleague John Larson will be welcome to sit 
up on the dais.
    Mr. Radanovich. Oh, absolutely. I think we included that in 
our--
    Mrs. Christensen. OK.
    Mr. Radanovich. If not, yes.
    Mrs. Christensen. All right. Thanks.
    Mr. Radanovich. You are welcome to join us as well. With 
that, we are going to begin hearing testimony from our 
distinctive panel, including Mr. Jim Gibbons from the State of 
Nevada. Jim, if you would like to begin. Welcome to your 
Subcommittee.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman. I ask unanimous 
consent that the full statement I have be submitted for the 
record.
    Mr. Chairman, I want to thank you for the opportunity also 
to discuss an issue that is of utmost importance to the 
constituents that I represent in rural Nevada.
    As many of you know, Nevada has the highest percentage of 
public lands in all the States of the Union, with close to 90 
percent of our State being managed by the Federal Government. 
This poses many problems for my constituents, including one 
which we will discuss here today--the burial of our loved ones 
and the preservation of grave sites for our ancestors.
    I introduced H.R. 272 to authorize a conveyance of two 
cemeteries, both in existence since the late 1800's, back to 
the local control of Lander and Eureka Counties.
    Mr. Chairman, on March 2, 1970, nearly 33 years ago, the 
Kingston Cemetery in Lander County was officially created with 
a 10-acre special use permit from the Forest Service. The 
intent of this permit was to protect the existing graves dating 
back to 1891, decades before the Forest Service ever existed. 
Again, in 1979, the Forest Service issued another 10-acre 
permit as the management of the cemetery was transferred to the 
Town of Kingston, Nevada.
    In February 1990, after 20 years of permitting burials, the 
Forest Service informed the Town of Kingston that the cemetery 
was in trespass of public lands. Furthermore, the town was told 
that the present Forest Service policy was to not authorize new 
cemetery permits as this was deemed a permanent use of the 
land.
    To resolve this problem, the Town of Kingston offered 2.58 
acres of land to the Forest Service in exchange for the 10 
acres of cemetery land. The town thought this was a very 
reasonable offer, especially considering that the Forest 
Service had already accidentally built a campground on their 
parcel of ground. But the Forest Service refused this proposal.
    In 1998, under the Freedom of Information Act, Kingston 
began to request documents and to research history in an effort 
to start negotiations for a deed to the Kingston Cemetery 
project. After 7 months of correspondence, the Forest Service 
said that this action could take anywhere from 2 to 7 years. As 
a last resort, the Kingston town board asked for my assistance.
    It is my intention to ensure that these honest, diligent 
people have some certainty and closure on this issue, which 
they have been burdened with for nearly three decades. 
Unfortunately, the Forest Service will testify today that they 
can meet the objectives of this bill under its current 
statutory authority by conveying lands to the county for 
comparable lands or at fair market value in cash.
    Now I am very troubled, if not outraged, that this agency 
is forcing the people of Lander County and those that are 
buried there to buy or exchange land for the graves of their 
parents. The county does not have the financial ability to 
purchase these lands and are understandably reluctant to 
exchange them with what extremely limited private land they may 
have and limited resources they do have.
    I call on the Forest Service to live up to its motto of 
caring for the land and serving people. The Forest Service 
should serve the people of Lander County by giving them their 
ancestral graveyard instead of trying to extort the highest 
price possible for the land.
    Mr. Chairman, while I am dismayed and disappointed by the 
greediness of the Forest Service, I applaud the BLM, which 
understands the sensitivity of transferring control of 
ancestral graveyards to local communities. The BLM understands 
that these sites are sacred and should be in the possession of 
local governments.
    Consequently, they are not seeking ``fair market value'' in 
the second transfer authorized in H.R. 272--the transfer of the 
Maiden's Grave Cemetery in Eureka County. What a breath of 
fresh air that is.
    Mr. Chairman, it is my hope that each member of this 
Committee will see the importance of this legislation, the 
simple fairness of transferring these historic graveyards back 
to the communities that have buried their loved ones there 
since the 1800's.
    After all, the role of the Federal Government is not to 
play real estate agent. The role of the Federal Government is 
to serve the people. H.R. 272 serves the people of Eureka and 
Lander Counties, Nevada, fairly, and this legislation should be 
fairly and expeditiously passed by this Committee and by 
Congress and serve the people of Nevada.
    With that, Mr. Chairman, I yield back the 31 seconds I have 
remaining.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                 from the State of Nevada, on H.R. 272

    Mr. Chairman, thank you for this opportunity to discuss an issue 
that is of utmost importance to my constituents in rural Nevada.
    As you may know, Nevada has the highest percentage of public lands 
of all the States in the Union'' close to 90 percent of our state is 
managed by the Federal Government.
    This poses many problems for my constituents, including one which 
we discuss here today--the burial of our loved ones and the 
preservation of the grave sites of our ancestors.
    I introduced H.R. 272 to authorize the conveyance of two 
cemeteries--both in existence since the late 1800s--back to the 
respective local control of Lander and Eureka counties.
    Mr. Chairman, on March 2, 1970, the Kingston Cemetery in Lander 
County was officially created with a 10-acre Special Use Permit from 
the Forest Service.
    The intent of this permit was to protect the existing graves dating 
back to 1891'' decades before the Forest Service ever existed.
    Again, in 1979 the Forest Service issued another 10-acre permit as 
the management of the cemetery was transferred to the Town of Kingston.
    In February of 1990, after 20 years of permitting burials, the 
Forest Service informed the Town of Kingston that the Cemetery was in 
trespass of public lands.
    Furthermore, the town was told that the present Forest Service 
policy was to not authorize new cemetery permits as this was deemed a 
Permanent Use of the Land!
    To resolve this problem, the Town of Kingston offered 2.58 acres of 
land to the Forest Service in exchange for the 10 acres of cemetery 
land.
    The town thought this was a very reasonable offer, especially 
considering that the Forest Service had already accidently built a 
campground on this parcel.
    But, the Forest Service refused this proposal.
    In 1998, under the Freedom of Information Act, Kingston began to 
request documents and to research history in an effort to start 
negotiations for a deed to the Kingston Cemetery property.
    After 7 months of correspondence, the Forest Service said that this 
action could take anywhere from 2 to 7 years.
    As a last resort, the Kingston Town Board asked for my assistance.
    It is my intention to ensure that these honest, diligent people 
have some certainty and closure on this issue which they have been 
burdened with for decades.
    Unfortunately, the Forest Service will testify today that they can 
meet the objectives of this bill under its current statutory 
authorities by conveying lands to the county for comparable land or for 
fair market value in cash.
    I am disgusted and outraged that this agency is forcing the people 
of Lander County to buy or exchange land for the graves of their 
parents.
    The County does not have the financial ability to purchase these 
lands and are understandably reluctant to exchange what EXTREMELY 
limited private land they do have.
    I call on the U.S. Forest Service to live up to its motto: ``Caring 
for the Land and Serving People.''
    The Forest Service should serve the people of Lander County by 
giving them their ancestral grave yard, instead of trying to extort the 
highest price possible for the land.
    Mr. Chairman, while I am dismayed and disappointed by the 
greediness of the Forest Service, I applaud the BLM which understands 
the sensitivity of transferring control of ancestral grave yards to the 
local communities.
    The BLM understands that these sites are sacred and should be in 
the possession of local governments.
    Consequently, they are not seeking ``fair market value'' in the 
second transfer authorized in H.R. 272--the transfer of the Maiden's 
Grave Cemetery in Eureka County.
    What a breath of fresh air.
    Mr. Chairman, it is my hope that each member of this Committee will 
see the importance of this legislation and the simple fairness of 
transferring these historic grave yards back to the communities that 
have buried their loved ones there since the 1800s.
    After all, the role of the Federal Government is not to play real 
estate agent. The role of the Federal Government is to serve the 
people.
    H.R. 272 serves the people of Eureka and Lander Counties, Nevada 
fairly and should be expeditiously passed by this Committee and 
Congress.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Gibbons. Wonderful 
testimony.
    Next we will move on to the Honorable John Larson to speak 
on bill number H.R. 437. Mr. Larson, welcome to the Committee, 
and please begin your testimony.

STATEMENT OF THE HON. JOHN LARSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Larson. Thank you, Mr. Chairman and Ranking Member 
Christensen.
    I have a written statement that I ask unanimous consent of 
the Committee to be inserted for the record, as well as several 
other extraneous news articles and information about 
Coltsville, with the Committee's permission. Is that OK?
    Mr. Radanovich. That would be just fine.
    Mr. Larson. Thank you, sir.
    I want to thank from the outset Chairman Pombo and Ranking 
Member Rahall for helping expedite the process, and certainly 
the Chair and the Ranking Member here today.
    I also want to congratulate members of our delegation. As 
was pointed out by Mrs. Christensen, it has the unanimous 
support of the Connecticut delegation as well as our Governor, 
John Rowland; the mayor of the City of Hartford, Eddie Perez; 
various members of the Connecticut General Assembly; and most 
notably, the community, especially Mr. William Gordon and Carol 
Coburn, who is the executive director for the Coalition To 
Strengthen the Sheldon/Charter Oak Neighborhood, commonly 
referred to as CSSCON.
    Later, you will hear from the Park Service in testimony and 
also from Mr. Kohn, who heads up the Colt Gateway, Inc., that 
is responsible for commercially developing that property as 
well.
    I want to underscore the importance of this and 
specifically point out that the Coltsville Study Act would 
direct the National Park Service to study the site commonly 
known as Coltsville and its surrounding area within the City of 
Hartford.
    In doing so, now this would provide an opportunity for 
Connecticut to evaluate the national significance, suitability, 
and feasibility for designation as a unit of the National Park 
System. It also asks the National Park Service to evaluate the 
importance of the area to the history of precision 
manufacturing.
    We are very proud in the State of Connecticut, and I am 
very proud to hail from the Hartford area. We have long been 
known as the Constitution State because we established the 
oldest continuous constitutional democracy in the world on the 
banks of the Connecticut River back in 1638.
    We have also been known as the arsenal for democracy, since 
our revolution, as being a provider State and having been the 
inventors of gunpowder. We also, from that same region, hail 
the oldest continuous museum, public museum in the Country, as 
well as the oldest continuous newspaper in the Country, the 
Hartford Current.
    Samuel Colt is known to many Americans, and especially the 
Colt .45, which was generally referred to as ``the gun that won 
the West.'' But what is not known to most people across the 
Country is that it was Elizabeth Colt, his wife, who--when 
Samuel Colt died at a rather young age--was the person who took 
over and manned the company and actually brought it to its 
heyday.
    It is quite a history of Mrs. Colt, who was way ahead of 
her time, and before she had the right to vote was probably one 
of the--if they had a Fortune 500, she would be part of the 
Fortune Top 10 of the Country at that time. An extraordinary 
woman, who, at the time of the industrial revolution, drove one 
of the Nation's leading manufacturers to the kind of success 
that Colt firearms enjoys even to this day.
    But to look at this area just simply as a manufacturer of 
firearms would be doing a disservice to Samuel and Elizabeth 
Colt. To understand their significance is to understand what 
was happening throughout the Connecticut River Valley in terms 
of the industrial revolution and precision manufacturing as 
well.
    The Colts were the first American company to establish a 
factory overseas, and they were also first to focus on the 
needs of the workplace and their workforce. And whether they be 
safety or fire concerns that plagued the Country during the 
time of the industrial revolution, whether it be providing 
housing and church services and public parks areas for people, 
the Colts clearly were ahead of their time.
    You are going to hear further testimony from both the Park 
Service and from Mr. Kohn in that specific area. But the most 
heartening thing for me, representing the area, is to see how 
the community has come together to embrace this.
    Not only has it been spearheaded by the neighborhood and 
the developer himself and the various historical societies and 
also the State's paper of record, the Hartford Current, 
virtually the whole State and its delegation have come together 
around this very historic and significant study that we think 
is so necessary for our future.
    I want to thank the Committee. I see that my time has 
expired. I want to thank you for the opportunity to present 
this legislation, which, as Representative Christensen pointed 
out, passed the Senate twice unanimously.
    [The prepared statement of Mr. Larson follows:]

Statement of The Honorable John B. Larson, a Representative in Congress 
               from the State of Connecticut, on H.R. 437

    As the sponsor of the House version of the Coltsville Study Act, 
H.R. 437, I would like to thank the Committee for allowing me to speak 
this afternoon on an issue of importance to my constituents and to the 
historic preservation of an important American landmark of achievement. 
I would also like to thank the rest of my delegation colleagues here in 
the House, Representatives DeLauro, Johnson, Shays, and Simmons, for 
their support of this proposal, as well as Senator Dodd and Senator 
Lieberman, for their support and leadership on this issue in the 
Senate.
    Specifically, the Coltsville Study Act would direct the National 
Park Service to study the site commonly known as ``Coltsville,'' and 
its surrounding area within the City of Hartford, Connecticut to 
evaluate its national significance, suitability, and feasibility for 
designation as a unit of the National Park System. It also asks the 
National Park Service to evaluate the importance of the area to the 
history of precision manufacturing.
    Last June the National Park Service testified before the Senate 
Energy and National Resouces Subcommittee on National Parks in support 
of the Senate version of the legislation authorizing this study. Later 
today you will be hearing from a representative from the National Park 
Service about the version of the Coltsville Study Act before you today.
    The Coltsville region of Hartford Connecticut is comprised of 
approximately 260 acres of land. The region is anchored by the 17-Acre 
Coltsville Heritage Park, which houses 10 historic buildings. Bordered 
by Interstate-91, The Connecticut River, the central business district 
of Hartford, the Museum of Connecticut State History, as well as the 
State Capitol, Coltsville represents a region rich in culture and 
history.
    The history of Coltsville is a unique regional & international 
landmark characterized by its many industrial achievements during the 
industrial revolution. Beginning with Samuel and Elizabeth Colt, 
founders of Colt Manufacturing Company, known for the production of 
firearms, the Colt's inspired the entire community to flourish during 
the industrial revolution. Coltsville is noted for its Victorian 
mansions, an open green area, botanical gardens, and even a deer park. 
The residence of Samuel and Elizabeth Colt in Hartford, CT, know as 
``Armsmear'', is a national historic landmark, and the distinctive Colt 
manufacturing factory's blue dome is a prominent feature in the 
Hartford, Connecticut skyline.
    When you look deeper at the county one begins to see the unique and 
holistic community that developed in the area and attracted early 
industrial leaders such as Col. Albert Pope of Pope Manufacturing who 
produced the nations most prominent bicycles and automobiles, which 
ultimately bloomed into what we now know as Pratt and Whitney located 
in East Hartford. Henry Ford, was drawn to the community because of his 
interest in learning about the innovative manufacturing techniques and 
equipment being invented and developed in Coltsville.
    It is important to emphasize that the Colt legacy is not just about 
firerearms, but also about industrial innovation and the development of 
technology that would change the way of life in the United States. Mr. 
Colt worked with Samuel Morse in the development of the telegraph, and 
Colt manufacturing contributed to the development of technology in many 
ways, inspiring the jet engine pioneers Francis Pratt and Amos Whitney, 
who served as apprentices at Colt manufacturing. The influence of the 
community was extended overseas when Samuel Colt became the first 
individual in the United States to open a manufacturing plant overseas.
    It is also the story of Elizabeth Colt and of women entrepreneurs 
of the early industrial age, as she successfully and profitably guided 
Colt Industries for more than 40 years after Samuel Colt's death in 
1862.
    Coltsville set the standard for excellence during the Industrial 
Revolution and continues to prove significant as a place in which 
people of the United States can learn about that important period in 
history and its association with the Mark Twain House, Trinity College, 
Old North Cemetery, and many historic homesteads and architecturally 
renowned buildings.
    This legislation and its overwhelming local support and excitement 
signifies that we are starting on the road to developing and 
cultivating Coltsville's history and its importance to Hartford and the 
State of Connecticut. The Senate version of this legislation, S. 233, 
was approved by unanimous consent on March 4, 2003. Along with other 
members of the delegation and the community, I am committed to 
preserving the area's immeasurable historical value. Coltsville is a 
unique regional and international landmark. I look forward to seeing 
the immense potential that the property holds fully utilized.
                                 ______
                                 
    Mr. Radanovich. Very good. Thank you, Mr. Larson. 
Appreciate your testimony.
    Mr. Larson. Thank you, sir.
    Mr. Radanovich. And we will hear from our next witness, and 
then if you would please join us on the dais for the rest of 
the hearing?
    Mr. Larson. Thank you, Mr. Chairman.
    Mr. Radanovich. That would be terrific. All right.
    Next up is the Honorable Jack Kingston from Georgia, 
speaking on H.R. 1113, which would authorize the exchange of 
land at Fort Frederica National Monument for other purposes.
    Jack, welcome to the Committee. Please begin your 
testimony.

   STATEMENT OF THE HON. JACK KINGSTON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Kingston. Thank you, Mr. Chairman.
    It is great to be with you all. And a question, Mr. 
Chairman, I have also former U.S. Senator Mack Mattingly here 
to testify. Should I yield him my time, or is that--
    Mr. Radanovich. Welcome, Senator. And, no, you go ahead. 
And what we will do is invite you onto the dais, move to the 
next panel. Senator Mattingly is on one of the next panels.
    Mr. Kingston. OK. Well, let me be brief in my general 
description of this.
    If you think about it, we just have three points of a 
triangle. A historic church--historic land, a historic church 
where John Wesley actually at one time preached and who, of 
course, was the founder of Methodism. And then we have an 
historic piece of land where General James Oglethorpe, one of 
the founders of Georgia, actually lived at one point. And then 
we have some raw land that is owned by Sea Island Company.
    And basically, it is just a swap of the three, but it is 
not directly like that. It is more the church swaps with Sea 
Island and then obtains land that the National Park Service 
wants, and the National Park Service wants to do the trade with 
the church from that point on.
    And to my knowledge, and we have vetted this now for about 
2 years. There were some kinks in this 2 years ago, but 
everybody wants this. There is no apparent opposition. The Park 
Service has looked at it fairly closely, and we think it is a 
good piece of legislation to move forward on.
    [The prepared statement of Mr. Kingston follows:]

Statement of The Honorable Jack Kingston, a Representative in Congress 
                from the State of Georgia, on H.R. 1113

    Since 1995, Christ Church, Frederica has been working with the NPS 
to broker a land exchange that would benefit all parties involved. 
Christ Church, Frederica, in an effort to expand their current 
facilities, would like to acquire 6 acres of NPS land, adjacent to the 
church, in exchange for 8.69 acres of land currently owned by the Sea 
Island Company. The Sea Island Company has brokered a deal with the 
Church to exchange this land for other land currently owned by the 
Church.
    On May 1, 2000, the NPS declined to participate in a land exchange 
with Christ Church for a variety of legal and policy reasons that were 
in enumerated in a memorandum signed by then acting Regional Director 
Dan Brown. Under that proposal, Fort Frederica would have received 7 
acres of land on its northern boundary from the Christ Church rectory 
property in exchange for 6 acres of National Monument land adjacent to 
the historic church property. Neither of the parcels involved in this 
proposed agreement contained any historic resources; as such, Director 
Brown found that there was no demonstrable benefit to the United States 
in acquiring the land.
    The agreement proposed in H.R. 1113 is different from the proposal 
of 2000. It involves an exchange of an 8.69 acre parcel of property 
containing the archeological ruins believed to be the former homestead 
of General James G. Oglethorpe, the founder of the State of Georgia. 
The NPS has conveyed to me that they are interested in obtaining the 
land with the Oglethorpe Ruins and they likewise assisted in the 
drafting of this legislation. There is an error in the current 
legislation that identifies the land to be given to Christ Church as 
approximately 4.8 acres rather than the actual amount, which is 6 
acres. I plan to amend the bill to reflect this change in acreage. A 
land amount of approximately 4.8 acres had been proposed during prior 
negotiations. However, that parcel contained a building that belonged 
to the NPS, which they wish to retain. As such, the NPS and Christ 
Church have agreed that the 6 acre tract, which adjoins Christ Church, 
Fort Frederica, and is appropriate because it does not contain the 
building or any historic resources.
    When Director Brown rejected this opportunity in 2000, he cited the 
NPS policy that prohibits land exchanges where there is no demonstrable 
benefit to the United States. I wholly believe that this proposed 
exchange would benefit the United States, as we have an interest in 
protecting and conserving the significant cultural resources such as 
the Oglethorpe Ruins. This property contains historical and 
archaeological resources that are non-renewable and should be protected 
and preserved by the NPS so that future generations will have the 
opportunity to visit this site of historical significance.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Kingston.
    Are there any questions of the panel members? And if there 
are not, by any other members, then I want to thank you for 
your testimony and ask you to join us on the dais, and we will 
get right to the substance of the matters.
    Panel two--if I could call up panel two, please--consists 
of Mr. Bob Anderson, who is the acting assistant director for 
minerals, realty, and resource protection, from BLM in 
Washington, D.C.; also Ms. Gloria Manning is the Associate 
Deputy Chief of the National Forest System, Washington, D.C.; 
also Mr. Jeff Taylor, Assistant Director of legislative and 
congressional affairs for the National Park Service.
    Good afternoon, and welcome to the Subcommittee. If you 
would begin, Ms. Manning, welcome back to the Subcommittee. I 
know you visited us before, and we appreciate what you bring. 
And if you would like to go ahead and begin your testimony?
    If you would, please keep to the 5-minute clock. Otherwise, 
you will hear from me. But please take the time to let us know 
your feelings on the appropriate bills.
    Ms. Manning. Thank you.
    Mr. Radanovich. Thank you.

 STATEMENT OF GLORIA MANNING, ASSOCIATE DEPUTY CHIEF, NATIONAL 
                         FOREST SYSTEM

    Ms. Manning. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to appear before you today.
    I am Gloria Manning, Associate Deputy Chief for National 
Forest System. I am here to provide you the Department's view 
on H.R. 272, a bill to direct the Secretary of Agriculture to 
convey certain lands to Lander County, Nevada.
    In summary, Section 1 of H.R. 272 requires the Secretary, 
through the Chief of the Forest Service, to convey to Lander 
County, Nevada, for no consideration, all right, title, and 
interest of the United States in and to the 10 acres of 
National Forest System land known as Kingston Cemetery.
    In accordance with Public Law 85-569, the Townsite Act, we 
have already conveyed 1.25 acres of land (on which the cemetery 
is located) to the Town of Kingston for $500 on August 1, 2000. 
At the time of the conveyance, the Town of Kingston indicated 
the 1.25 acres encompassed all known marked and unmarked grave 
sites.
    The Town of Kingston also indicated that the 1.25 acres was 
adequate to accommodate their future expansion needs. 
Specifically, all of the grave sites were accounted for within 
a half-acre fenced area that the 1.25 acres encompassed. The 
additional .75 acres were intended for parking and anticipated 
expansion of the current cemetery.
    If new unmarked grave sites have been discovered or the 
needs of the Kingston Cemetery have changed and are in the 
public interest, we would be supportive of making additional 
Federal lands available to the county or city for fair market 
value and granting the county an easement to maintain the 
access road to the cemetery as a county road.
    If Lander County is not willing to pay fair market value to 
purchase this land, we would be willing to consider authorizing 
its current and future use of this land under a special use 
permit authorization.
    The Department does not object to making additional Federal 
lands available to Lander County, but the Department believes 
that the Forest Service can meet the objectives of Section 1 of 
this legislation under its current statutory authorities that 
would allow it to convey National Forest System lands to Lander 
County for land or fair market value in cash.
    For example, under the Townsite Act, the Secretary of 
Agriculture may convey, for fair market value, up to 640 acres 
of land to established communities located adjacent to national 
forests in Alaska or the contiguous western States. Within 
certain limits, the Sisk Act authorizes the Secretary of 
Agriculture to exchange lands with States, counties, or 
municipal governments or public school districts for lands or 
money.
    These laws require the Secretary of Agriculture to obtain 
fair market value for exchange or sales of national forest 
lands. Indeed, the Federal policy in recent decades has moved 
toward obtaining a fair return to the public for the value of 
lands conveyed out of Federal ownership.
    This concludes my statement, and I would be happy to answer 
any questions you might have.
    [The prepared statement of Ms. Manning follows:]

 Statement of Gloria Manning, Associate Deputy Chief, National Forest 
  System, Forest Service, U.S. Department of Agriculture, on H.R. 272

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Gloria Manning, Associate 
Deputy Chief for National Forest System, USDA Forest Service. I am here 
today to provide the Department's views on H.R. 272, a bill to direct 
the Secretary of Agriculture to convey certain lands to Lander County, 
Nevada.
H.R. 272 Convey certain land to Lander County, Nevada for continued use 
        as a cemetery
    In summary, Section 1 of H.R. 272 requires the Secretary through 
the Chief of the Forest Service to convey to Lander County, Nevada, for 
no consideration, all right, title, and interest of the United States 
in and to the 10 acres of National Forest System land known as Kingston 
Cemetery.
    In accordance with Public Law 85-569, the Townsite Act, we have 
already conveyed 1.25 acres of land (on which the cemetery is located) 
to the Town of Kingston for $500 on August 1, 2000. At the time of the 
conveyance, the Town of Kingston indicated the 1.25 acres encompassed 
all known marked and unmarked gravesites. The Town of Kingston also 
indicated that the 1.25 acres was adequate to accommodate their future 
expansion needs. Specifically, all of the gravesites were accounted for 
within a half acre fenced area that the 1.25 acres encompassed. The 
additional .75 acres were intended for parking and anticipated 
expansion of the current cemetery.
    If new unmarked gravesites have been discovered or the needs of the 
Kingston Cemetery have changed and are in the public interest, we would 
be supportive of making additional Federal lands available to the 
county or city for fair market value and granting the county an 
easement to maintain the access road to the cemetery as a county road.
    If Lander County is not willing to pay fair market value to 
purchase this land, we would be willing to consider authorizing its 
current and future use of this land under a special-use permit 
authorization.
    The Department does not object to making additional Federal lands 
available to Lander County, Nevada in H.R. 272, but the Department 
believes that the Forest Service can meet the objectives of Section 1 
of this legislation under its current statutory authorities that would 
allow it to convey National Forest System lands to Lander County for 
land or fair-market value in cash.
    For example, under the Townsite Act, the Secretary of Agriculture 
may convey, for fair market value, up to 640 acres of land to 
established communities located adjacent to National Forests in Alaska 
or the contiguous western states. Within certain limits, the Sisk Act 
authorizes the Secretary of Agriculture to exchange lands with states, 
counties, or municipal governments or public school districts for lands 
or money.
    Moreover, under the General Exchange Act, the Secretary of 
Agriculture can exchange National Forest System lands with State and 
local governments. These laws require the Secretary of Agriculture to 
obtain fair market value for exchanges or sales of National Forest 
lands. Indeed, the Federal policy, in recent decades has moved toward 
obtaining a fair return to the public for the value of lands conveyed 
out of Federal ownership.
Conclusion:
    This concludes my statement; I would be happy to answer your 
questions.
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Manning. We are going to 
hear from the entire panel before we open up the entire panel 
for questions. So thank you for delivering your testimony.
    Next up is Mr. Jeff Taylor, who is the Assistant Director 
with the National Park Service. Jeff, welcome to the 
Subcommittee, and please begin your testimony. Again, if you 
could stick to 5 minutes, that would be great.

 STATEMENT OF JEFFREY TAYLOR, ASSISTANT DIRECTOR, LEGISLATIVE 
        AND CONGRESSIONAL AFFAIRS, NATIONAL PARK SERVICE

    Mr. Taylor. Thank you, Mr. Chairman and Ranking Member 
Christensen, for inviting me to testify today.
    I have been asked to testify on two specific bills, H.R. 
437 and H.R. 1113. And I would just ask that I would be able to 
submit my full testimony for the record.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Taylor. Thank you.
    The first one, H.R. 437, this is a bill that directs the 
Secretary of the Interior to conduct a study of Coltsville in 
Hartford, Connecticut, for potential inclusion in the National 
Park System.
    The Department supports H.R. 437. The Coltsville study area 
includes nationally significant buildings, including Armsmear, 
a national historic landmark, and structures that are a part of 
the Colt Industrial National Register District.
    The history of this site complements that of the 
Springfield Armory National Historic Site, also a unit of the 
National Park Service. Together, they show how innovations in 
the firearms industry laid the foundation for the American 
system of manufacturing.
    Only through further investigation will it be possible to 
determine if some part of the study area is feasible and 
suitable for inclusion in the park system and what role, if 
any, the National Park Service should play at this site. The 
study should cost approximately $300,000 to complete.
    The bill directs the service to study the site commonly 
known as Coltsville and its surrounding area within the City of 
Hartford to evaluate its national significance, suitability, 
and feasibility for designation as a unit of the National Park 
System. It also directs the park system to evaluate the 
importance of the site to the history of precision 
manufacturing.
    This is approximately a 260-acre site, and in the middle of 
it is a 17-acre Coltsville Heritage Park. This was recently 
acquired by a private developer from a nonprofit subsidiary of 
the Goodrich Corporation, and it contains 10 historic 
buildings, some of which are occupied by commercial, 
residential, and office tenants; a number of artists who also 
live there and work in the complex.
    Also within the study area, but in separate ownership, are 
examples of former Colt worker housing and other buildings 
associated with Colt history.
    The Colt revolver was a revolutionary weapon that changed 
military tactics and eventually made the sword obsolete in 
combat. It was first produced in 1847, and it maintained its 
reputation through the Civil War despite competition from other 
manufacturers.
    Colt's salesmanship was legendary, and the company grew due 
to his marketing, advertising, and public relations skills. He 
began construction of his first factory in Hartford in 1847. At 
the 1851 Crystal Palace Exhibition in London, Colt revolvers 
were displayed and their interchangeability demonstrated a 
highlight of the American system of manufacturing.
    Colt would continue to supply sidearms to the United States 
military until 1985. Colt weapons were carried not only by the 
American soldier on the frontier but were the personal weapon 
of choice of cowboys, both famous and infamous.
    Colt history complements that of Springfield Armory 
National Historic Site, which is managed by the Park Service in 
Springfield, Massachusetts, 25 miles north of Hartford. 
Originally, Springfield Armory produced shoulder arms, while 
Colt made handguns. Later, they worked together to bring the 
rapid-fire gun and, later, the machine gun into the inventories 
of the U.S. military.
    In our 1998 Connecticut River Valley Special Resource 
Reconnaissance Study, we said, ``Innovations stimulated by 
firearms manufacture, notably mass production and the concept 
of interchangeable parts, had far-reaching consequences 
throughout American industry.'' As the skills developed in 
firearms manufacture were given broader application, the 
corridor between New Haven, Connecticut, and Windsor, Vermont, 
became known as the ``Precision Valley.''
    Developments in arms making translated to other metal-
working industries, such as sewing machines, typewriters, 
bicycles, railway equipment, and clocks.
    The study would be undertaken with the full involvement of 
representatives of the State of Connecticut, the City of 
Hartford, property owners in the study area, and other 
interested organizations and individuals in the region.
    Secondly, I would like to speak on H.R. 1113. This is a 
bill that would authorize an exchange of land at Fort Frederica 
National Monument in Georgia.
    The Department also supports this bill, this land exchange, 
as outlined in H.R. 1113. Although appraisals have not been 
done for the two parcels, we expect that the value of the land 
received by the Park Service will be more than the value of the 
land given up, so there would be no need for land acquisition 
funding.
    The Park Service would incur increased operational costs 
associated with the exchange because of the archeological value 
to the park of the acquired lands. However, the amount of those 
costs cannot be determined at this time until the significance 
of the resources present on the site is established by the Park 
Service. We would also suggest a technical amendment to provide 
the identification information required for the map referenced 
in the bill.
    H.R. 1113 would authorize the Secretary to convey to Christ 
Church of St. Simons Island approximately 4.8 acres of land 
within the boundary of Fort Frederica National Monument in 
exchange for approximately 8.7 acres of land near Fort 
Frederica that will be acquired by Christ Church. Upon 
completion of the exchange, the Secretary shall revise the 
boundary of the monument and administer the land acquired 
through the exchange as part of the monument.
    Fort Frederica is located 12 miles northeast of Brunswick 
on St. Simons Island. The monument's authorized boundary 
contains 250 acres and preserves the remains of a fortified 
town established and laid out by Governor James Oglethorpe in 
1736 to defend against invasion from Spanish colonies in 
Florida.
    Fort Frederica was one of the earliest English settlements 
in what ultimately became the State of Georgia, and it was 
established and planned by Oglethorpe. Fort Frederica was a 
prosperous community of substantial homes whose residents were 
tradesmen and farmers and supplied the garrison stationed there 
much the same way communities provide goods and services to our 
current military installations.
    In 1739, Britain and Spain entered a war that eventually 
involved the fort. And after the 1748 treaty, Frederica's 
military garrison was withdrawn, and the Town of Fort Frederica 
fell into decline. In 1758, a fire destroyed most of the 
existing structures.
    The 8.7-acre site that Christ Church proposes to exchange 
for the land at Fort Frederica contains archeological remains 
that have been established to be from the colonial period. And 
in addition, tradition indicates that the land includes General 
Oglethorpe's home. However, we are not aware currently of any 
archeological survey that has been completed on this tract to 
positively determine if that is the case.
    The main town site within the national monument contains 
several well-preserved and partially reconstructed colonial 
ruins. There may be additional administrative and operational 
costs associated with protecting a small archeological site 
detached from the main park unit, and it has not been 
determined if that cost is commensurate with the limited 
additional interpretive value of the site if it only contains 
additional Frederica era resources but does not include 
Oglethorpe's home.
    We understand that Representative Kingston may amend H.R. 
1113 to adjust the acreage figures of the land subject to the 
exchange. We have prepared a land exchange map based on the 
language currently in the bill and the existing surveys of the 
two properties proposed for exchange.
    We would be happy to prepare a new map, and we just would 
like to work with Mr. Kingston closely to assure that the 
artifact storage facility currently on Fort Frederica remains 
in the current boundary.
    That concludes my testimony. I would stand ready to answer 
any questions that the Committee may have.
    [The prepared statements of Mr. Taylor follow:]

   Statement of Jeffrey Taylor, Assistant Director, Legislative and 
 Congressional Affairs, National Park Service, U.S. Department of the 
                         Interior, on H.R. 437

    Mr. Chairman, thank you for the opportunity to appear before your 
Committee to present the views of the Department of the Interior on 
H.R. 437. This bill would direct the Secretary of the Interior to 
undertake a study of Coltsville, a site in Hartford, Connecticut, for 
potential inclusion in the National Park System.
    The Department supports H.R. 437. The Coltsville study area 
includes nationally-significant buildings including Armsmear, a 
National Historic Landmark, and structures that are part of the Colt 
Industrial National Register District. The history of this site 
complements that of the Springfield Armory National Historic Site, a 
unit of the National Park Service. Together they could show how 
innovations in the firearms industry laid the foundation for the 
American system of manufacturing. Only through further investigation 
will it be possible to determine if some part of the study area is 
feasible and suitable for inclusion in the National Park System, and 
what role, if any, the National Park Service should play at this site. 
The study should cost approximately $300,000 to complete.
    The National Park Service is in various stages of progress with 40 
studies previously authorized by Congress. At least 17 of those studies 
are scheduled to be completed in Fiscal Year 2003. Seven additional 
studies are expected to be completed early in Fiscal Year 2004. Our 
highest priority is to complete the studies previously authorized by 
Congress, but we expect to begin work on newly authorized studies as 
soon as funds are available.
    The bill directs the National Park Service to study the site 
commonly known as ``Coltsville,'' and its surrounding area within the 
City of Hartford, to evaluate its national significance, suitability, 
and feasibility for designation as a unit of the National Park System. 
The bill also directs NPS to evaluate the importance of the site to the 
history of precision manufacturing.
    At the core of the Coltsville area, which is estimated at some 260-
acres, is the 17-acre Coltsville Heritage Park. Recently acquired by a 
private developer from a non-profit subsidiary of the Goodrich 
Corporation, this site contains ten historic buildings, some of which 
are occupied by commercial, residential, and office tenants; a number 
of artists also live and work in the complex. Also within the study 
area, but in separate ownership, are examples of former Colt worker 
housing and other buildings associated with Colt history. The potential 
study area borders Interstate 91, which parallels the Connecticut 
River, and is close to the central business district where the State 
Capitol and Museum of Connecticut State History are located. The State 
Museum is a major repository of Colt-related artifacts and archives, as 
is the Wadsworth Atheneum, a renowned museum also in the city center.
    Samuel Colt was born in Hartford in 1814 and died there in 1862. He 
obtained his first patent in 1836 and went on to found a company that 
is still in operation today, although it moved from the historic armory 
to West Hartford, Connecticut and is no longer owned by the Colt 
family. The Colt name is known throughout the world. Colt firearms and 
other products have been used in every major conflict from the U.S.-
Mexican War to the present.
    The Colt revolver was a revolutionary weapon that changed military 
tactics and eventually made the sword obsolete in combat. First 
produced in 1847, it maintained its reputation through the Civil War 
despite competition from other manufacturers. Colt's salesmanship was 
legendary, and the company grew due to his marketing, advertising, and 
public relations skills. He began construction of his first factory in 
Hartford in 1847. At the 1851 Crystal Palace Exhibition in London, Colt 
revolvers were displayed and their interchangeability demonstrated as a 
highlight of the ``American System of Manufacturing.'' Colt was so 
impressed with his reception in England that he would build a factory 
there, becoming the first American to set up a manufacturing plant 
overseas.
    The Hartford facility expanded in the mid-19th century. The 
armory's distinctive blue onion dome, a Hartford landmark visible from 
I-91, was built in 1855. In order to attract laborers, Colt built a 
self-contained community surrounding the factory at Coltsville that 
included housing, gardens, beer halls, and a band. A library and school 
were established for the children of the workers, as well as a church 
and social hall. Many of these structures are still extant and are part 
of the Colt Industrial National Register District that was listed in 
1976. The Colt family home, Armsmear, a National Historic Landmark, and 
its surrounding grounds are situated in Colt Park, abutting the armory 
site. The original factory burned in 1864, but was rebuilt soon after.
    Colt would continue to supply sidearms to the United States 
military until 1985. Colt weapons were carried not only by the American 
soldier on the frontier, but were the personal weapon of choice of 
cowboys, both famous and infamous.
    Colt history complements that of Springfield Armory National 
Historic Site, which is managed by the National Park Service in 
Springfield, Massachusetts, 25-miles north of Hartford along the 
Connecticut River. Originally Springfield Armory produced shoulder arms 
while Colt made handguns. Later they worked together to bring the 
rapid-fire gun and later the machine-gun into the inventories of the 
U.S. military. But in 1961 Colt challenged Springfield Armory's M14 
rifle while promoting its competing AR-15, now known as the M16 rifle. 
This ultimately resulted in the demise of Springfield Armory in 1968.
    The Colt story is also the story of Elizabeth Colt, who took over 
the factory after her husband's death in 1862, and ran it successfully 
for another 39 years. The history of this remarkable woman is not well-
known and should be included as part of the study.
    In our 1998 Connecticut River Valley Special Resource 
Reconnaissance Study, we said, ``innovations stimulated by firearms 
manufacture, notably mass production and the concept of interchangeable 
parts, had far-reaching consequences throughout American industry.'' As 
the skills developed in firearms manufacture were given broader 
application, the corridor between New Haven, Connecticut and Windsor, 
Vermont became known as the ``Precision Valley.'' Developments in arms 
making translated to other metal working industries, such as sewing 
machines, typewriters, bicycles, railway equipment, and clocks.
    The study would be undertaken with the full involvement of 
representatives of the State of Connecticut, the City of Hartford, 
property owners in the study area, and other interested organizations 
and individuals in the region.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any questions that you or 
the members of the Committee may have.
                                 ______
                                 

   Statement of Jeffrey Taylor, Assistant Director, Legislative and 
 Congressional Affairs, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1113

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the Department's views on H.R. 1113. This bill 
would authorize an exchange of land at Fort Frederica National 
Monument.
    The Department supports an exchange of land between Christ Church 
Frederica and Fort Frederica National Monument, as outlined in H.R. 
1113, in accordance with this testimony. Although appraisals have not 
been completed for the two parcels, we expect that the value of the 
land received by the National Park Service (NPS) will be more than the 
value of the land given up so there will be no need for land 
acquisition funding. The NPS would incur increased operational costs 
associated with the exchange because of the archeological value to the 
park of the acquired lands. However, the amount of those costs cannot 
be determined until the significance of the resources present on the 
site NPS acquires is established. We also suggest a technical amendment 
to provide the identification information required for the map 
referenced in the bill.
    H.R. 1113 would authorize the Secretary to convey to Christ Church 
of St. Simons Island, Georgia approximately 4.8 acres of land within 
the boundary of Fort Frederica National Monument in exchange for 
approximately 8.7 acres of land near Fort Frederica that will be 
acquired by Christ Church. Upon completion of the exchange, the 
Secretary shall revise the boundary of Fort Frederica National Monument 
and administer the land acquired through the exchange as part of the 
monument.
    Fort Frederica National Monument is located 12 miles northeast of 
Brunswick on St. Simons Island, Georgia. The monument's authorized 
boundary contains 250 acres and preserves the remains of a fortified 
town established and laid out by Governor James Oglethorpe in 1736 to 
defend against invasion from Spanish colonies in Florida.
    Fort Frederica was one of the earliest English settlements in what 
ultimately became the State of Georgia, preceded by Fort King George 
(1721), located near Darien, Georgia, and the Cities of Savannah (1733) 
and Augusta (1735), also established and planned by Oglethorpe. Fort 
Frederica was a prosperous community of substantial homes whose 
residents were tradesmen and farmers supplying the garrison stationed 
there much the same way communities provide goods and services to 
military installations today. In 1739, Britain and Spain entered a war 
that eventually involved Fort Frederica. After the 1748 treaty, 
Frederica's military garrison was withdrawn and the Town of Fort 
Frederica fell into decline. In 1758, a fire destroyed most of the 
existing structures.
    Fort Frederica National Monument was established on May 26, 1936. 
Subsequent legislation increased the authorized boundary to 250 acres 
and directed the Secretary of the Interior to acquire the Battle of 
Bloody Marsh memorial site on St. Simons Island. Subject to the 250-
acre limitation, the Secretary was also authorized to acquire 
additional marshland acreage west of the Frederica River, across from 
the National Monument, for additional protection of the historic scene.
    On June 29, 1993, following a lengthy campaign involving the 
efforts and support of the Trust for Public Land and many private 
citizens of St. Simons Island, Fort Frederica acquired 28 acres of 
land, including river frontage on the south side of the town site, that 
had been planned for a major marina development. This acquisition 
preserved the historic view of the river approach to Fort Frederica. 
The 4.8-acre parcel that H.R. 1113 directs the Secretary to give to 
Christ Church is within this 28-acre acquisition.
    The 8.7-acre site that Christ Church proposes to exchange for the 
land at Fort Frederica contains archeological remains that have been 
established to be from the colonial period. Tradition indicates that 
the land includes General Oglethorpe's home, however we are unaware of 
any archeological survey work that has been completed on this tract to 
positively determine if this is the case.
    The main town site within the National Monument contains several 
well-preserved and partially reconstructed colonial ruins. There may be 
additional administrative and operational costs associated with 
protecting a small archeological site detached from the main park unit 
and it has not been determined if that cost is commensurate with the 
limited additional interpretive value of the site if it only contains 
additional Frederica era resources but does not include Oglethorpe's 
home.
    We understand that Representative Kingston may amend H.R. 1113 to 
adjust the acreage figures of the land subject to the exchange. We have 
prepared a land exchange map based on the language currently in the 
bill and the existing surveys of the two properties proposed for 
exchange. We would be happy to prepare a new map, but want to work 
closely with Mr. Kingston in order to assure that the National 
Monument's artifact storage facility and other buildings remain within 
the current boundary of Fort Frederica and that the historic scene is 
protected. It also would be important to ensure that the value of the 
lands exchanged does not require land acquisition funding.
    Our technical amendment to provide the map number, title, and date 
is attached to this testimony.
    That completes my testimony. I would be happy to answer any 
questions that you or any members of the Subcommittee may have.

                     Proposed Amendment; H.R. 1113

    On page 1, line 9, strike out everything starting with ``Church 
and'' through the end of subsection (a) and replace it with the 
following:
    ``Church and depicted as ``NPS Lands for Exchange'' on the map 
entitled ``Fort Frederica National Monument 2003 Boundary Revision'', 
numbered 369/80016, and dated March 2003, in exchange for the 
approximately 8.7 acres of land to be acquired by Christ Church, which 
is depicted as ``Private Lands for Addition'' on the same map.''
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Taylor. I appreciate your 
testimony.
    Next up is Mr. Bob Anderson from BLM, here to speak on H.R. 
272. Mr. Anderson, welcome to the Committee, and please begin 
your testimony. And again, please try to keep to the 5-minute 
clock.

   STATEMENT OF BOB ANDERSON, ACTING ASSISTANT DIRECTOR FOR 
   MINERALS, REALTY, AND RESOURCE PROTECTION, BUREAU OF LAND 
                           MANAGEMENT

    Mr. Anderson. Thank you for the opportunity to appear here 
today. The Forest Service has already addressed Section 1 of 
H.R. 272, and I will now address Section 2.
    The Bureau of Land Management supports Section 2 of H.R. 
272, which provides for the conveyance of the Maiden's Grave 
Cemetery near Beowawe, Nevada, to Eureka County. Approximately 
10 acres would be conveyed to the county, which would maintain 
the area as a cemetery. In addition, the Bureau of Land 
Management would be required to grant access to the cemetery 
across adjacent public land.
    The Maiden's Grave is the final resting place of Lucinda 
Duncan, who, on August 15, 1863, died on her way to the gold 
and silver fields of Nevada. Today, the site continues to 
receive occasional burials. Therefore, it is considered a 
modern cemetery and does not qualify for the National Register 
of Historic Places.
    The BLM, through its planning process, has identified the 
cemetery as suitable for disposal, and the county has indicated 
a strong interest in taking responsibility for this parcel.
    We appreciate this opportunity to work with local interests 
to the betterment of the community. We would like the 
opportunity to work with Congressman Gibbons and the 
Subcommittee to address technical issues, including 
modifications to the reversionary clause, clarification of 
timing on the transfer of the lands, specificity on the access 
route, and to assure that the mineral estate is conveyed along 
with the land.
    Thank you, Mr. Chairman. That concludes my testimony.
    [The prepared statement of Mr. Anderson follows:]

  Statement of Bob Anderson, Acting Assistant Director for Minerals, 
Realty and Resource Protection, Bureau of Land Management, on H.R. 272, 
                 Eureka County, Nevada Land Conveyance

    Thank you for the opportunity to appear here today. H.R. 272 
provides for the conveyance of two cemeteries in Nevada to Lander and 
Eureka counties. I will confine my comments to section two of the bill 
and defer to the Forest Service on section one. The BLM supports 
section two of H.R. 272 which provides for the conveyance of the 
``Maiden's Grave Cemetery'' near Beowawe, Nevada (Bay-o-wah'-wee) to 
Eureka County, Nevada. Approximately 10 acres would be conveyed to the 
county which would maintain the area as a cemetery. In addition, the 
Bureau of Land Management (BLM) would be required to grant access to 
the cemetery across adjacent public land.
    ``The Maiden's Grave'' is the final resting place of Lucinda Duncan 
who on August 15, 1863, died on her way to the gold and silver fields 
of Nevada. Mrs. Duncan at 71 was ``the mother of the wagon train'' 
which consisted largely of her seven surviving children, their spouses 
and a multitude of grandchildren. Following her death, the wagon train 
held a ceremony and their leaving was memorialized by a member of the 
party:
        ``...we paid our last debt & respect to the remains of the 
        departed mother. There upon that wild & lonely spot, we left 
        her, until Gabriel shall sound his trumpet in the last day. The 
        scene was truly a sad one to leave a beloved mother on the wild 
        and desolate plains. A board with the name of the deceased was 
        put up at the head & boulder was laid over the grave to keep 
        wolves from scratching in it. After this the train moved on.''
    Today, the site continues to receive occasional burials. Therefore, 
it is considered a ``modern cemetery'' and does not qualify for the 
National Register of Historic Places. The BLM, through its planning 
process, has identified the cemetery as suitable for disposal and the 
county has indicated a strong interest in taking responsibility for 
this parcel.
    While we would typically expect to receive market value for such a 
transfer, we understand the unique circumstances in this case, and the 
unique needs of Eureka County. Under other circumstances, we might have 
considered a Recreation and Public Purposes (R&PP) Act conveyance to 
lower the cost to the county, but the need for permanency in this 
transfer prevents this from being a viable option, thus the need for 
legislative intervention.
    We appreciate this opportunity to work cooperatively with local 
interests to the betterment of the community. We would like the 
opportunity to work with Congressman Gibbons and the Subcommittee to 
address technical issues including: modifications to the reversionary 
clause, clarification of timing on the transfer of the lands, 
specificity on the access route, and to assure that the mineral estate 
is conveyed along with the land.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Anderson. Appreciate your 
testimony.
    I will now begin to open up for questions for the members, 
and each one will have 5 minutes to ask questions. I am going 
to defer to Mr. Gibbons. Jim, if you want to go ahead and 
start, you have my 5 minutes.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and I 
appreciate your generosity. And I would like to ask Ms. 
Manning, first of all, when did you come to the Forest Service?
    Ms. Manning. In 1979.
    Mr. Gibbons. And you were with the Forest Service in the 
year 2000?
    Ms. Manning. Yes.
    Mr. Gibbons. And what was your job title in 2000?
    Ms. Manning. I was associate deputy chief for business 
operations, I think.
    Mr. Gibbons. All right.
    Ms. Manning. I think that is what I was.
    Mr. Gibbons. Ms. Manning, let me bring you up to date. 
Because you were obviously in the Forest Service during this 
period of time but may not have had the direct contact during 
this 2000 timeframe that you mentioned in your testimony with 
regard to this parcel of land in Kingston, Nevada.
    In your testimony, you suggested that since 2000 or at 
2000, the Town of Kingston changed its mind regarding the need 
for more than 1.25 acres, and I would suggest to you that that 
is not true. 1970, the township and the Forestry Department 
agreed that 10 acres was the adequate size of the parcel of 
land for this.
    Having talked to the representatives of the Town of 
Kingston just last week, they have not revised their need for 
10 acres, and they have not revised it down to 1.25 from the 10 
acres that they had originally had. But rather, it was the 
United States Forest Service that decided that the town did not 
require the 10 acres, and the town respectfully disagrees with 
you on that issue.
    The Town of Kingston did not believe that the 1.25 acres 
was adequate, as the Forest Service and your testimony claims, 
but rather that that 1.25 acres was the maximum acreage that 
the United States Forest Service was willing to sell the town. 
And it was the Forest Service that judged that the 1.25 acres 
was adequate, not the Town of Kingston.
    The Forest Service has been willing to allow the Town of 
Kingston to hold the 10 acres for nearly 30 years. And despite 
recently revising the permit to reduce the site to 1.25 acres, 
the United States Forest Service has already agreed that it 
would be willing to sell the 8.75 remaining acres to the Town 
of Kingston, but only at fair market value or trade for 
appropriate land.
    Now we are back to where your testimony was. Let me ask you 
a question. Do you agree or on the basis of the United States 
Forest Service that the 8.75 acres which is the subject of this 
bill is needed or not needed for proper management of the 
United States Forest Service lands in that area? Is it on the 
disposal list is what I am asking?
    Ms. Manning. As far as I know, it is not on the disposal 
list.
    Mr. Gibbons. Is it needed as part of the adequate 
management of the Toiyabe National Forest in that area?
    Ms. Manning. I would have to confer with the district 
ranger there and find out if it is actually needed.
    Mr. Gibbons. But you are saying that you are willing to 
sell it?
    Ms. Manning. What we strive to do in the Forest Service, if 
the county indicates that there is a need for this land for its 
cemetery, then we will entertain that because of the need being 
a greater public need.
    Mr. Gibbons. So here it is, the City of Kingston, Nevada, 
has indicated that it needed 10 acres, and it has needed 10 
acres since 1970. You agreed in 1970 that 10 acres was the 
adequate size because you put it under a special use permit for 
them as a cemetery.
    Today, you are saying they only need 1.25. They say they 
still need the 10 acres. Adequate parking, growth of a 
cemetery, which is the inevitability of all of us on this 
earth. And you are disagreeing that they only need 1.25 versus 
10 acres. Is that what you are saying today?
    Ms. Manning. No, what I am saying is they have not come to 
us since that time asking for additional usage. And we do have 
a letter from them saying that is all they needed. And since 
that time--
    Mr. Gibbons. What is the date of the letter, and would you 
submit it for the testimony in the record, please?
    Ms. Manning. Yes, I will. It is October 1, 1999.
    Mr. Gibbons. OK. So that was the reason why it came back. 
But you stated also that you only permitted 1.25 acres to be 
the maximum that you would sell them. And they said they could 
get along with that for $500.
    Ms. Manning. That I am not sure of. I will have to check 
the records to see that we said that.
    Mr. Gibbons. I would like to see a copy of that letter as 
well. One thing I want to ask for is what is the fair market 
value, Ms. Manning, of a cemetery?
    Ms. Manning. I don't know that. We would have to have it 
appraised. But we think it is approximately $6,000, based on 
what we know, but we haven't had it appraised.
    Mr. Gibbons. Mr. Chairman, my time is up.
    Mr. Radanovich. You are on a roll. You don't want to 
continue, or you need another couple of minutes, Jim? We can go 
around, and everybody can have their 5 minutes and come back.
    Mr. Gibbons. Why don't I let others ask the questions, and 
I will come back and fill in?
    Mr. Radanovich. OK. Great. I yield to Mrs. Christensen for 
5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And I would be willing to allow my colleague, Mr. Larson, 
to go ahead of me if he had a few questions, and I reserve my 
time, though.
    Mr. Larson. I just have a point.
    Mr. Radanovich. OK.
    Mr. Larson. Thank you, Mrs. Christensen.
    I just simply want to thank the National Park Service for 
coming forward and testifying so eloquently with regard to this 
need, and I would yield back. And again, thank both you and the 
Chairman for the courtesies that you have shown us today.
    Mrs. Christensen. OK? OK. Thank you, Mr. Chairman.
    I guess I would start with Ms. Manning. Just one question. 
On the Forest Service parcel, Section 1D requires that the 
Secretary grant an easement over a specific forest development 
road, and it says, ``Notwithstanding any future closing of the 
road for other use.''
    Are you comfortable with that language, and doesn't this 
effectively mean that the Forest Service would never be able to 
close that road?
    Ms. Manning. Well, we don't interpret it as never because 
we usually work with the county for safety and health reasons 
if there is a need to close it. But we would confer with the 
county on things like that. And with that understanding, we are 
comfortable with it.
    Mrs. Christensen. Even though the legislation said 
``notwithstanding any future closing of the road for other 
use''? I mean, that is how it is written.
    Ms. Manning. We would--
    Mrs. Christensen. It seems pretty clear. Would you be 
uncomfortable leaving that road open? I mean, not having the 
complete authority to close that road because the legislation 
says that it cannot be closed?
    Ms. Manning. Well, we always like to work with the 
community to modify so that if there are safety reasons or 
health reasons--
    Mrs. Christensen. Right.
    Ms. Manning. And usually, in the past, when we have worked 
with the counties, they will agree to allow us to close it 
under those conditions.
    Mrs. Christensen. OK. Thanks.
    I guess I would go to Mr. Anderson next. In your testimony, 
you said that BLM might have considered accomplishing the 
conveyance in H.R. 272 under Recreation and Public Purposes 
Act, but that the need for permanency prevented that from being 
a viable option.
    If it had been conveyed under RPPA, the Federal Government 
would have received compensation, which is not the case under 
the legislation before us. Could you expand on why the RPPA was 
not a viable alternative to legislating this transfer?
    Mr. Anderson. It would be a viable alternative, actually, 
if the county were willing to pay 50 percent of the fair market 
value.
    Mrs. Christensen. OK. Does the permanency relate to that in 
any way?
    Mr. Anderson. Well, under the R&PP Act, there is a reverter 
clause always. And under H.R. 272, I know there is, you have 
built in a reverter.
    To be real candid, I am not sure that a reverter is 
necessary here. And if there is a reverter, we would want it to 
be discretionary because before we take something back in 
ownership, we would want to make sure that the land is clear of 
encumbrances or hazardous materials.
    Mrs. Christensen. OK. So you answered a part of my next 
question.
    So the other technical issues that you mentioned beside the 
reverter clause is a clarification of timing on the transfer of 
lands, the specificity on the access route, and the issue--the 
last one, I think, was regarding conveyance of the mineral 
estate.
    Could you just expand on each of those for me, please? The 
timing, the specificity on the access route, the conveyance of 
mineral.
    Mr. Anderson. Well, on the timing, since there is no 
deadline in H.R. 272 in terms of granting the parcel to the 
county, BLM would do a National Environmental Policy Act, a 
NEPA document, probably an environmental assessment. We would 
also have cultural surveys in there, as well as threatened and 
endangered species inventories. And that takes time.
    Although I don't think it would take much time, that is why 
we would have to work with our field office to see what 
timeframe we would be talking about on that one.
    In terms of the access, the county road is adjacent to the 
10-acre parcel. And if you were to look at a map, there doesn't 
appear to be access off the county road. And if the county 
would desire, we would grant an easement. I am not sure it is 
necessary. But if they would like that insurance, we could 
accommodate that.
    Mrs. Christensen. OK.
    Mr. Anderson. In terms of the mineral interests, actually 
it is just a reiteration that the mineral estate would go with 
the conveyance. It wouldn't be practical, I don't think, to 
reserve the minerals here. We don't think it has potential for 
mineral development, and of course, we wouldn't want to be 
interfering with the purposes for the cemetery either.
    Mrs. Christensen. OK. Let me see if I can get a question in 
for Mr. Taylor.
    Mr. Taylor, in your testimony, you said that if the parcel 
the NPS is to acquire didn't contain General Oglethorpe's home, 
it would have limited interpretive value. Doesn't it make sense 
to do the archeological survey to establish whether this is the 
Oglethorpe site before we acquire it?
    Mr. Taylor. It is my understanding there have been some 
limited archeological studies done already that does indicate 
there are some resources from the Fort Frederica area. So it 
does already include some valuable resource areas.
    Mrs. Christensen. Would it be--
    Mr. Taylor. It would be advantageous to have an 
archeological appraisal done to see if, in fact, this is the 
site that the Governor had his home located on. That is what--
    Mrs. Christensen. But if it was not the home, would the 
site have equal interpretive value? Would it make the 
exchange--
    Mr. Taylor. It would probably have less interpretive value, 
but it still does have interpretive value at this--from what we 
know about the site already.
    Mrs. Christensen. So if that was not there and you were 
asked to do the exchange, you would still support the exchange?
    Mr. Taylor. That is correct.
    Mrs. Christensen. My time is up.
    Mr. Radanovich. Thank you, Donna.
    Jack, did you want to be recognized? I recognize Mr. 
Kingston for 5 minutes.
    Mr. Kingston. Thank you, Mr. Chairman.
    I just wanted to say Mr. Taylor had mentioned that we need 
to amend the bill because of the acreage point, and we are 
certainly all in agreement with any kind of technical amendment 
to that nature, and we are all on the same page.
    Also, Mr. Chairman, if I might use some time. 
Unfortunately, I have a 3 leadership meeting at the Capitol 
that I am going to have to leave. So I am not going to be able 
to introduce Senator Mattingly, but I trust that he is going to 
be in good hands with this distinguished bipartisan Committee. 
If not, I know I am going to hear from him on it.
    [Laughter.]
    Mr. Radanovich. Thank you. We will take good care of him, 
Jack. Don't worry.
    Ms. Bordallo, would you like to address? No questions?
    Ms. Bordallo. No questions.
    Mr. Radanovich. OK. Thank you. Then I recognize Mr. 
Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    I want to go back to a line of questioning that Mrs. 
Christensen started off with, which is the closure of the road 
from Kingston to the cemetery. Do you know how far it is from 
the town site of Kingston to the cemetery?
    Ms. Manning. I don't know the exact mileage.
    Mr. Gibbons. Do you have a guesstimate?
    Ms. Manning. No, I don't.
    Mr. Gibbons. Well, I can tell you I have a map sitting in 
front of me, a survey map that shows the 1.25 acres within the 
10-acre boundary limitation that they have asked for, or the 
original permit. And that shows right at about 249.18 feet.
    Now, if you want to close a road for a certain reason, 
would you close a road that is 249.18 feet from the city limits 
to their cemetery?
    Ms. Manning. As I stated earlier, only if it is for safety 
and, you know, or health reasons, and we don't--
    Mr. Gibbons. Can you imagine, in the comfort of your chair 
while you sit there, a safety reason that would indicate that 
you would close a road for that length of time?
    Ms. Manning. At the moment, no. But if there is some 
outbreak of something and--
    Mr. Gibbons. OK.
    Ms. Manning. But normally, no. And if we did, we wouldn't 
do it without conferring with the county.
    Mr. Gibbons. Now, you have indicated that the Forest 
Service is willing to sell the City of Kingston this property 
at fair market value, which you have established ball park 
figure of around $6,000, somewhere in there?
    Ms. Manning. But that is just a guess.
    Mr. Gibbons. OK. That suggests to this Committee that you 
are willing to part with this property because it is not needed 
for the real management of the Toiyabe Humboldt National Forest 
System.
    How large would you tell this Committee is the Toiyabe 
Humboldt forest system? How big? How many acres?
    Ms. Manning. I don't know.
    Mr. Gibbons. Do you have a guess?
    Ms. Manning. No, I don't. I would rather not. But--
    Mr. Gibbons. Is it more than 6 million acres?
    Ms. Manning. No, it isn't.
    Mr. Gibbons. Is it less than 6 million?
    Ms. Manning. Yes, it is.
    Mr. Gibbons. OK. So you know its approximate size?
    Ms. Manning. I don't know. I would rather not go on record 
as saying how big it is because--
    Mr. Gibbons. OK. Is it bigger than 1,000 acres?
    Ms. Manning. Yes, it is.
    Mr. Gibbons. Is it bigger than 100,000 acres?
    Ms. Manning. If you are going to make me guess, I would 
think it is less than a million acres.
    Mr. Gibbons. OK. So we are talking about 1/10,000 of a 
percent of the land which would be conveyed. So, obviously, you 
have got a large Forest Service area out there, and we are 
talking 10 acres right next to this town site that has been 
used for a cemetery.
    When would the Forest Service ever issue a special use 
permit for a permanent use?
    Ms. Manning. Well, normally, we issue special use for 20 
years, and I think that is about the max. But it can be 
renewed. And so, in essence, it ends up being permanent. But it 
is reissued, taking into consideration the public needs at that 
particular time.
    Mr. Gibbons. A cemetery would definitely be a public 
permanent use?
    Ms. Manning. Right. And likely we would issue a special use 
permit for what they needed for as long as they needed.
    Mr. Gibbons. OK. And that is fine. And I just want you to 
know that, you know, I am not here to put you in a trap. I am 
not here to get the Forest Service to commit to something they 
haven't already done, which they have done.
    What would you do if, at the end of those 20 years, the 
City of Kingston said to the Forest Service, ``We no longer 
want the cemetery. We want you to go out there and maintain 
those grave sites. We want you to maintain that road. And we 
want you to be responsible for all of those grave sites.'' What 
would you do at that point in time?
    Ms. Manning. It would revert back, and we would, within the 
fiscal ability we had, we would take care of it.
    Mr. Gibbons. So you are saying that if you don't want to do 
this, they can't buy it, the Forest Service would be willing to 
maintain that cemetery in perpetuity?
    Ms. Manning. We would have no choice if it reverted back to 
us. But what we are saying is on the authorities that we have, 
we can convey it. But it is only on that authority which is for 
fair market value.
    Mr. Gibbons. Well, this bill mandates that you bypass that 
authority because that authority was granted by Congress or 
mandated by Congress, and we can grant that authority to bypass 
that, can we not?
    Ms. Manning. Yes, you can.
    Mr. Gibbons. And that is what this bill does.
    Ms. Manning. If the bill is passed, sir, we would--
    Mr. Gibbons. So the Forest Service merely wants $6,000 out 
of a very small community that probably doesn't have the 
financial means at this point in time to pay for the 10 acres 
for its cemetery?
    Ms. Manning. It is a matter of our implementing the acts as 
they are. And at the moment, the only authority that we have 
exists within the Townsite Act.
    Mr. Gibbons. Well, Mr. Chairman, one final question for Ms. 
Manning, and then I will let her go because I know she has got 
a lot of other things to deal with.
    Is your only complaint with this bill that it requires you 
to convey that 8.75 acres at zero cost to you, at no cost to 
you, versus the fair market value? Is that your only complaint 
with Section 1?
    Ms. Manning. It is that complaint and the fact that, and 
within our records, we have documentation that the town no 
longer needs that acreage.
    Mr. Gibbons. All right. If I can get you a statement from 
the township, from the leadership of Kingston Township that 
they actually wanted the 10 acres and have always wanted the 10 
acres, your only complaint then would be that they are asking 
for it free?
    Ms. Manning. And the precedent that that would set.
    Mr. Gibbons. Mr. Chairman, I could stay here and issue 
these comments until we actually got the land out of them by 
forcing them to sit here. But I won't do that to this 
Committee.
    Thank you.
    Mr. Radanovich. Thank you, Mr. Gibbons.
    Mrs. Christensen for 5 minutes?
    Mrs. Christensen. Thank you. And I hope I won't take that 
long.
    I had a few more questions for Mr. Taylor. The site in H.R. 
1113 is a small, detached site. What are the other uses 
surrounding that site, and what are the costs that you 
associate with administering a detached site like that?
    Mr. Taylor. I am sorry. The first part was what other--
    Mrs. Christensen. Yes. What is surrounding--
    Mr. Taylor. My understanding is that one portion of the 
land, or it is included in a larger portion that is currently 
owned by Sea Island Plantation that is an undeveloped site. And 
I am not sure of the actual acreage of that particular site.
    And then on the other side that is actually contiguous with 
Fort Frederica, it is a small residential neighborhood.
    Mrs. Christensen. OK. What are the costs that would be 
associated with administering a small site that is detached 
from the other--
    Mr. Taylor. There could certainly--
    Mrs. Christensen. Because I think in your testimony, you 
also say that you weren't sure that the cost to administer 
would be justified if the Oglethorpe house was not on that 
property.
    Mr. Taylor. Well, it actually seems that the costs for 
oversight of that particular land will actually increase if it 
turns out that that is where Governor Oglethorpe had his home, 
simply because there will be more resources that will need to 
be protected. So there may be some fencing needs that would 
need to be taken--
    Mrs. Christensen. But then the interpretive value if the 
home was, indeed, there would be worth--
    Mr. Taylor. It would justify a higher cost.
    Mrs. Christensen. And if it were not there, the cost to 
administer would be justified with the lesser interpretive 
value?
    Mr. Taylor. I am not exactly sure what costs are going to 
be incurred. But there would certainly be, you know, a ranger 
is going to need to go by and check on the site on a regular 
basis. There may need to be some fencing even if Oglethorpe's 
home does not show up on that property.
    Mrs. Christensen. OK. I just have one other short question.
    Mr. Taylor. Yes, ma'am?
    Mrs. Christensen. You also said that you had some concern 
about the proposed alterations to the exchange. Is there some 
question that those changes could include the service 
facilities, National Park Service facilities?
    Mr. Taylor. I think there was actually some confusion on 
our part as our understanding is that the parcel that the 
Christ Church wants does not include the curator's facility--
    Mrs. Christensen. Right.
    Mr. Taylor. --or any of the other maintenance facilities 
that we have in that corner of Fort Frederica. And as long as 
it doesn't, then we are totally supportive of the exchange.
    Mrs. Christensen. OK. But you are not clear what the 
alterations might--
    Mr. Taylor. It seemed that there seemed to be some 
confusion, frankly, between Congressman Kingston's office and 
ours as to what the land looked like. But our understanding was 
that the 4.7 acres did not include and does not include any of 
our supporting facilities.
    Mrs. Christensen. And would not include.
    Mr. Taylor. And would not include. That is correct.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Radanovich. Any other questions for the panel?
    [No response.]
    Mr. Radanovich. If not, thank you very much for coming. And 
with that, we will call up our third panel. Thank you.
    Next is the Honorable Mack Mattingly, former U.S. senator 
from the State of Georgia, from St. Simons, Georgia, and also 
Mr. Robert Kohn, chief operating officer from the Colt Gateway 
LLC in Hartford, Connecticut.
    Mr. Gibbons. Mr. Chairman, may I ask a question--
    Mr. Radanovich. Yes.
    Mr. Gibbons. --to the Chairman? Assuming that I get this 
letter of statement of fact from the City of Kingston with 
regard to the need for 10 acres versus the 1.25 acres, would it 
be appropriate to submit that to the Committee for inclusion 
into the record--
    Mr. Radanovich. Absolutely.
    Mr. Gibbons. --when that arrives. Thank you.
    Mr. Radanovich. No objection at all.
    Mr. Gibbons. Thank you.
    [The letter from the Kingston Town Board submitted for the 
record follows:] 
[GRAPHIC] [TIFF OMITTED] T6339.001


    Mr. Radanovich. All right. Welcome to the Subcommittee. 
Senator Mattingly, welcome. And on behalf of Jack Kingston, 
too, I want to welcome you and assure you that we will take 
very good care of you.
    And if you would like to begin your testimony on the Fort 
Frederica issue, please begin to do so.

STATEMENT OF THE HON. MACK MATTINGLY, FORMER U.S. SENATOR FROM 
                      THE STATE OF GEORGIA

    Senator Mattingly. Thank you, Mr. Chairman and Ranking 
Member Christensen.
    Having sat on both sides, this is the first time I have 
ever testified. But I was a Subcommittee Chairman for 6 years 
on Appropriations, and some Committee meetings are painless and 
some are painful. So sometimes I know how you feel.
    But it is my pleasure to be here today in order to testify 
before you in regards to H.R. 1113. As a Vestry member of 
Christ Church, Frederica, it has been my task to try to assist 
our church in trying to obtain a land exchange between Fort 
Frederica and the church that would benefit both parties.
    I sincerely believe that we have accomplished this with the 
legislation now before you. This effort was started several 
years ago. But with the assistance of Congressman Kingston that 
he and I started in actually March of 2002, we have arrived at 
a solution with H.R. 1113, when the acreage stated is amended 
to read 6.0 acres and not 4.8 acres.
    Christ Church has agreed with the Sea Island Company to 
exchange approximately 23.124 acres of Christ Church land for 
8.69 acres of land that the Sea Island Company owns that is 
noted, and has been for years, as the Oglethorpe site.
    And we now want to exchange the Oglethorpe site of 8.69 
acres designated by the Shupe Surveying Company, dated 
September 19th in the year 2000, for 6.0 acres of land as 
designated by the Shupe Surveying Company, dated December 20, 
1999.
    The land that we exchange to Sea Island will be usable to 
them, whereas the land that we obtain from Sea Island would not 
be usable by them because of its historical value. Anybody that 
has been involved in land and properties and exchanges of 
historical value knows that you cannot build on something that 
has historical value.
    And Christ Church itself has doubled in size in the last 9 
years, and the additional land is really needed for its 
expansion. That 6.0 acres that is adjacent to Christ Church 
owned by Fort Frederica National Monument does not detract from 
the national monument and is a perfect site for the church. But 
in addition, the 8.69 acres that Fort Frederica National 
Monument will acquire is not only larger, but it is a 
historical site that is contiguous to the monument and is no 
doubt of great value.
    James Oglethorpe, as many have stated, briefly occupied 
this 8.69 acres as his homestead. Now, preservation of such 
sites, as they are really nonrenewable resources, should be 
protected by the Park Service from damage and destruction and 
also preserved for future scientists and the public.
    The Oglethorpe site was on around 300 acres with probably 
only about 50 acres of high ground, and the balance of that was 
marsh. And this site really has a really great scientific value 
and potential, and it deserves to be protected and nominated 
for inclusion in the National Record of Historic Places. I 
believe that public access and damage to this site can be 
reduced by deeding it to the Federal Government.
    And I think, as Mr. Taylor testified, that it does have 
value even if Oglethorpe hadn't been there because it is an 
historical site. And in the larger issue, the National Park 
Service gets a greater land area in this exchange, and it is 
contiguous with the Park Service.
    And as far as the change from 4.7 to 6.0 acres, the 
original 4.7 acres had in it a government building, and it was 
really the National Park Service that came to the assistance of 
the church to say that to make this a 6-acre site and cut that 
building out of that site. So as a former 1985 Georgia 
conservation of the year, which few people acquire that title 
in the State of Georgia as a representative, I ask 
consideration by this Committee to approve this legislation.
    Thank you.
    [The prepared statement of Senator Mattingly follows:]

  Statement of The Honorable Mack Mattingly, a U.S. Senator from the 
      State of Georgia, Retired, St. Simons, Georgia, on H.R. 1113

    Mr. Chairman, it is a pleasure to be here today in order to testify 
before you regards to H.R. 1113. As a Vestry member of Christ Church, 
Federica, it has been my task to assist our church in trying to obtain 
a land exchange between Fort Federica and the church that would benefit 
both parties. I sincerely believe we have accomplished this with the 
legislation now before you. This effort was started some several years 
ago, but with the assistance of Congressman Kingston that he and I 
started in March of 2002 we have arrived at a solution with H.R. 1113 
when the acreage states is amended to read 6.0 acres not 4.8 acres.
    Christ Church has agreed with Sea Island Company of Sea Island, 
Georgia to exchange approximately 23.124 acres of land that belong to 
Christ Church for 8.69 acres of land Sea Island owns, that is noted as 
the Oglethorpe site. We now want to exchange the General Oglethorpe 
site of 8.69 acres designated by Shupe Surveying Co., PPC dated 9/19/00 
for 6.0 acres of land Ft. Federica, as designated by Shupe Surveying 
Co. dated 12/20/99. The land we exchange to Sea Island will be useable 
for them, whereas the land we receive from Sea Island would not be 
because of its historical value.
    Christ Church has doubled in size in the last 9 years and the 
additional land is needed for its expansion. The 6.0 acres that is 
adjacent to Christ Church owned by Ft. Federica National Monument does 
not detract from the National Monument, and is a perfect site of the 
church, but in addition the 8.69 acres that Fort Federica National 
Monument will acquire is not only larger, but is a historical site that 
is contiguous to the monument and is no doubt of great value.
    James Oglethorpe as many have stated, briefly occupied this 8.69 
acre area as his homestead. Preservation of such sites, as they are 
non-renewable resources, should be protected by the Park Service from 
damage and destruction and also preserved for future scientists and the 
public. The Oglethorpe site was on the around 300 acres with probably 
on 50 acres of high ground and the balance of the marsh. This site has 
great scientific potential and deserves to be protected and nominated 
for inclusion in the National Record of Historic Places. Deeding it to 
the Federal Government should reduce public access and damage to the 
site.
    Thank you for your time and attention to this testimony Mr. 
Chairman.
                                 ______
                                 
    Mr. Radanovich. Thank you, Senator.
    Next up will be Mr. Robert Kohn, who is the Colt Gateway 
Chairman of the LLC. Mr. Kohn, welcome to the Committee, and we 
will look forward to your testimony.

STATEMENT OF ROBERT KOHN, CHIEF OPERATING OFFICER, COLT GATEWAY 
                              LLC

    Mr. Kohn. Thank you very much, Mr. Chairman and 
distinguished members of the Subcommittee.
    It is an honor to be here today and to share with you some 
of the many attributes of both Samuel and Elizabeth Colt and 
the legacy that they left behind for all of us to share.
    I have a written statement that I would ask unanimous 
consent from the Committee to have inserted in the record and 
would ask your permission to briefly summarize the highlights 
of that document for your convenience.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Kohn. Thank you. My name is Robert Kohn. I am the chief 
operating officer for the parent company, Homes For America 
Holdings, Inc., that owns this incredible 17-acre site known as 
Coltsville in Hartford, Connecticut.
    I would like to highlight some of the many salient points 
that make Coltsville a truly unique candidate for National Park 
Service status.
    Samuel Colt, born in Hartford, Connecticut, in 1814, was a 
man of extraordinary drive and vision. At the age of 22, he 
received his first patent and founded a company that helped 
lead America into the industrial revolution.
    At the age of 33, he started the construction of the 
Coltsville factory, crowning it with its nationally recognized 
blue onion dome in 1855. Sam Colt created an entire village 
around the factory, including gardens, schools, housing, a 
library, social halls, and a church in order to attract skilled 
labor to his factory.
    Sam Colt died in 1862. And 2 years later, the factory 
burned to the ground. By all rights, this should have been the 
end of the story. But, in fact, it is the beginning of another 
fascinating story, the mostly untold story that matches any of 
the lessons we have studied in American history about the great 
industrialists of our Nation.
    It was 10 years after Sam Colt's death that the gun that 
won the West, the Colt .45 Peacemaker, was developed and 
produced. It was the latter part of the 19th century, well 
after Sam Colt's death, that saw Coltsville's greatest 
prosperity.
    So with the death of Samuel Colt and destruction by fire of 
his plant shortly thereafter, who was responsible for the 
rebirth of Coltsville? And who was responsible for the most 
famous of the Colt handguns being produced?
    Who guided Coltsville for 40 years after Sam's death into a 
period of tremendous financial success? And finally, who kept 
the factory on the cutting edge of technology all of this time? 
One person--his wife, Elizabeth Colt, perhaps America's first 
and foremost national and international industrialist.
    The story of Sam and Elizabeth Colt needs to be told. The 
impact of the manufacturing techniques used at Colt needs to be 
shown. Henry Ford visited Coltsville to learn more about 
combining quality and quantity in production. Connecticut, 
Vermont, and Massachusetts became known as Precision Valley, 
based on exacting quality in manufacturing. Bicycles, sewing 
machines, cars, jet engines, clocks, and typewriters have been 
built using manufacturing skills learned at Coltsville.
    Sam and Elizabeth Colt were gun manufacturers, first and 
foremost. Colt firearms have served this Country well through 
countless battles and in lands near and far. But the legacy 
that the Colt family has left us to preserve is not just their 
firearms, but the proof that in America, with hard work, 
dedication, and drive, man or woman alike can achieve greatness 
and bring about significant change and improvements to a 
business, an industry, and to the overall quality of life for 
all.
    Elizabeth Colt did all that against all odds and at a time 
when a woman in the workplace was a rarity. I hope you all 
agree that Coltsville has a multifaceted story to be told, 
replete with a hero and heroine.
    Creation of a national park of any size is an ongoing 
formidable financial commitment by the government. We at 
Coltsville know and understand this, and we are committed to 
help. Here are a few of the possibilities.
    The proposed park could encompass the entire 17-acre site 
of Coltsville with both public and private space, gardens, 
museums, visitor center, and a tour of the dome. All of the 
buildings of Coltsville are being renovated and/or restored to 
national landmark specifications currently.
    Space for the visitors center containing original steam-
driven pistons for the factory, access to the blue onion dome, 
as well as museum space in one or two of the oldest buildings 
on the site--those being the foundry and/or polishing 
buildings--could be available to the public.
    The owners of Coltsville are spending in excess of $100 
million to restore Coltsville, thereby minimizing the need for 
National Park Service's capital outlays. We hope that this 
Subcommittee will recommend to the Secretary of the Interior 
that a formal study of this site be conducted for inclusion of 
Coltsville as part of the National Park System.
    With what Coltsville represents historically to this 
Country, along with the stories of Samuel and Elizabeth Colt, 
with $100 million investment we are making privately, and with 
its proximity to the Springfield Armory and the Lowell, 
Massachusetts, park, I am sure this would be an invaluable 
addition to the National Park System and a site that would be 
visited by many people across the United States and afar for 
years to come.
    Thank you all for your time.
    [The prepared statement of Mr. Kohn follows:]

         Statement of Robert M. Kohn, Chief Operating Officer, 
                Colt Gateway LLC, Hartford, Connecticut

    Thank you for the opportunity to appear before your Committee to 
present the views of Colt Gateway LLC and Homes For America Holdings, 
Inc. on H.R. 437. This bill would direct the Secretary of the Interior 
to conduct a study of the site commonly known as ``Coltsville'' in the 
State of Connecticut for potential inclusion in the National Park 
System.
An Introduction
    As the Chief Operating Officer of Colt Gateway LLC, a subsidiary of 
Homes For America Holdings, Inc., I strongly support a study to include 
Coltsville in the National Park System. Coltsville's national 
significance, suitability and feasibility for designation as well as 
the importance of the site to the historic preservation of an American 
legacy make this site an ideal candidate for inclusion in the National 
Park System. In my opinion, there are few more deserving locations for 
the National Park designation than Coltsville. Coltville's fascinating 
history, its impact on innovation and American history, its positioning 
as the home of Elizabeth Colt as one of the first female 
industrialists, the site's compatibility with other nearby National 
Parks and the momentum, planning and financing currently in place to 
make this Park a reality'' all are persuasive grounds for supporting 
this study.
The Coltsville Study Area
    Coltsville is a 17-acre community in Hartford, Connecticut built 
around Samuel and Elizabeth Colt's firearms factory during the 
Industrial Revolution of the 19th century. Currently owned and operated 
by Colt Gateway LLC, the site itself contains ten historic buildings, 
portions of which are occupied by both commercial and residential 
tenants, including a large number of artists who live and work in the 
complex. Colt Gateway LLC is currently conducting a substantial $102 
million historic rehabilitation and preservation of the site, in full 
accordance with national historic standards. The East Armory building 
within the site, with its landmark red brick building and distinctive 
blue onion dome, would serve as the ideal center for the Park
    Easily accessible from Interstates 91 and 84, Coltsville runs 
parallel to the nearby Connecticut River and is within walking distance 
of the Hartford central business district. Within the immediate area 
are former buildings that housed Colt workers as well as splendid 
Victorian homes such as Armsmear, which served as the home of Samuel 
and Elizabeth Colt and is now a National Historic Landmark. Other 
attractions in the immediate area help to make Coltsville even more of 
a destination, including the houses of Mark Twain and Harriet Beecher 
Stowe, the Museum of American Political Life, the Colt Memorial and of 
course the riverfront. Other significant nearby attractions include the 
State Capitol, the Museum of Connecticut State History and the 
Wadsworth Atheneum museum, which stores vast collections of Colt-
related artifacts and archives.
A Brief History of Coltsville
    Samuel Colt, born in Hartford in 1814, lived the life of a legend. 
With his first patent in 1836, he founded a company that played a 
leading role in the Industrial Revolution. Construction of the 
Coltsville factory began in 1847 and expanded throughout the mid-19th 
century, including the construction in 1855 of the armory's distinctive 
blue onion dome, a Hartford landmark visible from I-91. In order to 
attract laborers, Colt built a self-contained community surrounding the 
factory that included housing, gardens, and entertainment halls as well 
as a library, school, church and social hall. Many of the structures 
still exist today and are part of the Colt Industrial National Register 
District that was listed in 1976.
    Samuel Colt died in 1862, and two years later the factory burned to 
the ground. In a fascinating example of one of this country's first 
female industrialists, Elizabeth Colt took over the factory and ran it 
successfully for another 40 years. In fact, Samuel Colt's most 
recognized accomplishment, the Colt 45 Peacemaker, was not actually 
developed or manufactured until ten years after his death. Elizabeth 
presided over the company during its most prosperous years, in a period 
when men dominated the industrial world. Her significant contributions 
to American industrialism make Coltsville distinct from other 
historical sites and establish a broader base than the history of 
munitions manufacture. This is a place where a dynamic woman seized the 
helm of her husband's company, steering it to ongoing success through 
the manufacture of innovations that changed the face of American 
history. Elizabeth Colt gives the site a central story, broad utility, 
a greater audience and a compelling reason to visit.
Coltsville Innovation & Impact on American History
    Coltsville is most known as the birthplace of a concept that 
transformed the firearm from a single shot device into a multiple shot 
device and changed the course of American economic and military 
history. The Colt revolver was a revolutionary weapon that changed 
military tactics and eventually made all weapons that came before it 
obsolete in combat.
    Coltsville's unique and considerable impact on Connecticut and New 
England is clear. The skills developed in firearms manufacture were 
given broader application here. Developments in arms-making influenced 
other metalworking industries, such as sewing machines, typewriters, 
bicycles, automobiles, railway equipment, jet engines and clocks. Early 
industrial leaders like Henry Ford came to Coltsville to learn the 
innovative manufacturing techniques and equipment being developed in 
the area. The corridor between New Haven, Connecticut and Windsor, 
Vermont became known as ``Precision Valley.''
    In addition to the impact on Connecticut and New England, 
Coltsville's impact in America and abroad cannot be understated. As the 
first American to set up a foreign manufacturing plant, Samuel Colt's 
influence was extended overseas. Ambitious entrepreneurs with big 
ideas, Elizabeth and Samuel were willing to take risks and work hard to 
shape the future and to reap the rewards. In doing so they have powered 
American capitalism. The Colt legacy is not just about firearms, but 
also about industrial innovation and the development of technology and 
a system of manufacturing that would change the way of life in the 
United States. That same spirit of innovation today powers all of 
American industry and can be seen in such sectors as information 
technology, medical research, biotechnology, defense technology, public 
relations and many others.
    Today, the Colt name is known throughout the world. Colt firearms 
and other products have been used in every major conflict--from the 
U.S.-Mexican War to the present. As such they have been an integral 
factor in the security, confidence and self-reliance of this country. 
The impact on Coltsville in this arena confirms our conviction that 
Coltsville should be designated a National Park.
The National Park: A Preliminary Plan
    A national park at Coltsville would ideally encompass all seventeen 
acres of the Coltsville site and would include both public and private 
space. The centerpiece would be a visitor center within the armory, 
including original steam-driven pistons and the accessible blue onion 
dome that provides 360 views of Hartford, the Connecticut River and 
surrounding areas. Coincidentally, this armory already houses a 
business that manufactures replica Colt firearms, which would only 
enhance the proposed museum. The interactive museum could be housed in 
Building 8 and/or 10, which are two of the oldest buildings on the site 
and originally served as the factory's foundry and polishing rooms. The 
museum and visitors' center would be dedicated as public space for the 
Park. The remaining commercial and residential space would be left 
private.
    It is important to note that because Colt Gateway LLC is already in 
the process of privately restoring this national treasure, the cost of 
designating Coltsville would be minimal. A comprehensive $102 million 
historic preservation in accordance national historic standards is 
currently underway. As the developer, Colt Gateway LLC would prepare 
virtually all the space required, giving the National Park Service the 
rare opportunity to add a spectacular park to the system with an 
investment and operating costs at a fraction (less than 10%) of the 
value of the site. It is our opinion that, please forgive the pun, 
Coltsville gives the National Parks System a real bang for the buck.
    The tourist interest sparked by the Coltsville Park would work in 
tandem with other endeavors stimulating business growth, such as the 
adjacent Adriaen's Landing project, to contribute to the continuing 
economic revival of Connecticut's capital city. Lowell, Massachusetts 
is a good example of what a national park can do for a city. The 
textile mills and canals at Lowell have been described as must-see 
attractions in tourist guidebooks. I believe that if Coltsville is 
designated a national park, the same will be said about the Colt armory 
and its surroundings. Moreover, the history of Colt complements that of 
the Springfield Armory National Historic Site just 25 miles north in 
Massachusetts.
Conclusion
    In conclusion, it is my opinion that it is not only feasible and 
suitable to include Coltsville in the National Park System, but that 
Coltsville is the ideal candidate for that inclusion. We are committed 
to preserving Coltsville's immeasurable historical value, and we 
certainly appreciate the Committee's consideration of this proposal. We 
are eager to work with the National Park Service in any way we can to 
continue this process.
    While we acknowledge the budgetary and scheduling obstacles of our 
request, we believe that the overwhelming bipartisan support for 
designation is a sign that we are well on our way to preserving 
Coltsville's legacy. Support from public officials such as Connecticut 
Governor John Rowland and Mayor of Hartford Eddie Perez as well as from 
important civic groups in Connecticut and elsewhere has been 
considerable. I would also like to commend Representatives Larson, 
DeLauro, Shays and Simmons as well as Senators Dodd and Lieberman for 
their leadership and integral role in supporting Coltsville.
    Again, thank you for the opportunity to comment. We will do all we 
can to assist you, Mr. Chairman, and all the members of the Committee, 
to make this a reality. This concludes my prepared remarks. I would be 
glad to answer any questions that you or the members of the Committee 
may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Kohn.
    With that, I will go ahead and open up the Committee to 
questions.
    Senator Mattingly, can you tell me should the church obtain 
the National Park Service land in exchange, what would the 
church plan on doing with the land? Do you have any idea?
    Senator Mattingly. Well, first off, the current church 
would stay there since it is the oldest church, Anglican Church 
built in 1736. So on the new site, there would be a new church. 
And that is what it would be used for.
    Mr. Radanovich. Very good. Thank you.
    Mr. Kohn, should the site become a unit of the National 
Park Service, is the Colt Gateway LLC prepared to donate the 
land to the Park Service should that occur, or have you given 
any consideration to that at all?
    Mr. Kohn. Well, we are prepared to donate the areas that 
would be necessary for public use, such as the visitors center, 
and to make rental space available to entities such as national 
historic societies that have expressed an interest in operating 
museums space for their ability to do so.
    Mr. Radanovich. Would it be the expectation of the Park 
Service then to purchase the remaining land that was not 
donated, or would it be the intention of the LLC to keep the 
land?
    Mr. Kohn. We would keep the land but make it available to 
the National Park Service toward and for its presentation to 
the public.
    Mr. Radanovich. All right. Thank you very much.
    Mrs. Christensen?
    Mrs. Christensen. I have one question, and I have seen the 
old Colt site when I had an opportunity to travel to Hartford 
with my colleague here, as well as visit some other places in 
Connecticut.
    But my question would be to Senator Mattingly. The 23 or 
so--
    Senator Mattingly. Twenty-three acres. Right. Excuse me.
    Mrs. Christensen. Oh, 23 acres that belongs to the church 
that is going to be transferred to Sea Island, is that in the 
same vicinity?
    Senator Mattingly. Yes.
    Mrs. Christensen. OK.
    Senator Mattingly. But not--
    Mrs. Christensen. It would be adjoining the park?
    Senator Mattingly. Oh, no. It does not adjoin the park.
    Mrs. Christensen. Or the monument?
    Senator Mattingly. No.
    Mrs. Christensen. Thank you.
    Senator Mattingly. OK.
    Mr. Radanovich. Ms. Bordallo?
    Ms. Bordallo. Thank you, Mr. Chairman.
    I am just curious. I did come late and didn't hear panel 
one. But is the Administration's position still unknown on this 
particular piece of legislation?
    Mr. Radanovich. I am not sure which one you are referring 
to. Would it be the Colt?
    Ms. Bordallo. The 1113.
    Mr. Radanovich. H.R. 1113?
    Ms. Bordallo. Mm-hmm.
    Mr. Radanovich. They were in support of it. Yes, I think 
they are in support of it.
    Ms. Bordallo. Pardon?
    Mr. Radanovich. They are in support of the--yes.
    Ms. Bordallo. Because the paper we have here states their 
position as unknown.
    Mr. Radanovich. Oh, I see. They have explained, I think, 
during the hearing that they are in support of the transfer.
    Ms. Bordallo. I see. Thank you very much for the 
clarification.
    Mr. Radanovich. Uh-huh. Mr. Larson?
    Mr. Larson. Yes, I thank you again, Mr. Chairman and the 
Ranking Member Christensen, for the courtesies you have 
extended us.
    I want to thank Mr. Kohn personally for coming to testify 
and also for the, like so many projects that are important in 
urban areas, to see the kind of private commitment that has 
been made here and the synergistic relationship between 
community, government, developer, and the private sector is 
very heartening.
    And again, I want to thank him for his testimony and the 
Committee for allowing us the opportunity to be here.
    Mr. Radanovich. My pleasure. Any other questions of the 
panel?
    [No response.]
    Mr. Radanovich. If not, Senator, Mr. Kohn, thank you very 
much for being here. We really appreciate it.
    That concludes this hearing. And thank you very much.
    [Whereupon, at 3:22 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
